Audit Report




OIG-07-028
Management Letter for the Fiscal Year 2006 Audit of the
Department of the Treasury Forfeiture Fund’s Financial
Statements


January 25, 2007




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220


                                            January 25, 2007
     OFFICE OF
INSPECTOR GENERAL


            MEMORANDUM FOR ERIC E. HAMPL, DIRECTOR
                           TREASURY FORFEITURE FUND

            FROM:                 Joel A. Grover
                                  Deputy Assistant Inspector General
                                   for Financial Management and Information
                                   Technology Audits

            SUBJECT:              Management Letter for the Fiscal Year 2006 Audit of the
                                  Department of the Treasury Forfeiture Fund’s Financial
                                  Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Treasury Forfeiture Fund’s (TFF) Fiscal Year 2006 financial
            statements. Under a contract monitored by the Office of Inspector General,
            Gardiner, Kamya & Associates, PC (GKA), an independent certified public
            accounting firm, performed an audit of the financial statements of TFF as of
            September 30, 2006 and for the year then ended. The contract required that the
            audit be performed in accordance with generally accepted government auditing
            standards; applicable provisions of Office of Management and Budget Bulletin
            No. 06-03, Audit Requirements for Federal Financial Statements; and the
            GAO/PCIE Financial Audit Manual.

            As part of its audit, GKA issued and is responsible for the accompanying
            management letter that discusses a certain matter that was identified during the
            audit, which was not required to be included in the audit reports.

            In connection with the contract, we reviewed GKA’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where GKA did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5400, or a
            member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
            (202) 927-5789.

            Attachment
TREASURY FORFEITURE FUND 



  MANAGEMENT LETTER 

    FISCAL YEAR 2006


      October 31, 2006 

Inspector General, U.S. Department of the Treasury, and the
Director, Treasury Forfeiture Fund

We have audited the Principal Statements (balance sheets and the related statements of net cost,
changes in net position, budgetary resources and financing, hereinafter referred to as “financial
statements”) of the Department of the Treasury Forfeiture Fund (the Fund) as of and for the years
ended September 30, 2006 and 2005, and have issued an unqualified opinion thereon dated October
31, 2006. In planning and performing our audit of the financial statements of the Fund, we
considered its internal control over financial reporting in order to determine our auditing procedures
for the purpose of expressing our opinion on the financial statements and not to provide assurance on
the internal control. We have not considered the internal control since the date of our report.

During our audit, we noted a certain matter involving the internal control over financial reporting
that we consider to be a reportable condition under the standards established by the American
Institute of Certified Public Accountants. The reportable condition is reported separately in our
Report on Internal Control over Financial Reporting dated October 31, 2006.

We also noted a certain matter involving the internal control over financial reporting and other
operational matters that are presented in this letter for your consideration. This issue and
recommendations, all of which have been discussed with the appropriate members of Fund
Management, are intended to improve the internal control over financial reporting or result in other
operating efficiencies. There were no management letter comments carried over from prior years.

Our audit procedures are designed primarily to enable us to form an opinion on the financial
statements, and therefore may not bring to light all weaknesses in policies or procedures that may
exist. Our aim, however, is to use our knowledge of the Fund gained during our audit to provide
comments and suggestions we hope will be useful to you.

This letter is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General and the Government Accountability Office and is not intended to be, and should
not be used by anyone other than these specified parties.

We appreciate the cooperation and courtesies extended to us. We will be pleased to meet with you or
your staff at your convenience to furnish any additional information.




October 31, 2006
                MANAGEMENT LETTER 

            COMMENT AND RECOMMENDATIONS 

             YEAR ENDED SEPTEMBER 30, 2006 

__________________________________________________________________________
                      TREASURY FORFEITURE FUND 

           MANAGEMENT LETTER COMMENT AND RECOMMENDATIONS 

                    YEAR ENDED SEPTEMBER 30, 2006 


Untimely Recording of Seized and Forfeited Property and Currency Transactions by the U.S.
Secret Service.

Condition

In fiscal year 2006, certain amounts generated from the asset tracking system (FasTrak) and
reported on the Analysis of Changes in Seized and Forfeited Property and Currency (the
Rollforwards) by the U.S. Secret Service (Secret Service or USSS) did not agree with the
corresponding transactions recorded in the Fund’s accounting system. For instance, while the Fund
accounted for and reported revenue of $5,693,648 from Secret Service forfeited currency (class
code 971) in its accounting system, Secret Service reported $3,731,573 as deposits in FasTrak
resulting in a difference of $1,962,075. Additionally, the Fund accounted for and reported seized
currency in the suspense account (class code 733) of $13,131,656, however Secret Service recorded
$12,093,122 as the total ending seized balance in FasTrak. Typically, the ending seized balance
recorded in the inventory system should be higher than what is recorded in the suspense account
because the inventory system’s balance also includes seized currency on-hand and frozen bank
accounts.

Criteria

Statement of Federal Financial Accounting Standards Number 3 (SFFAS No. 3), Accounting for
Inventory and Related Property, requires seized and forfeited property and currency to be accounted
for in property management records so that reliable financial and statistical reports may be prepared.
Specifically, SFFAS No. 3 requires the preparation of an analysis of changes in seized and forfeited
property and currency including the dollar value and number of seized property and currency that
are: (i) on hand at the beginning of the year; (ii) seized during the year; (iii) disposed of during the
year and the method of disposition; and (iv) on hand at the end of the year.

Cause

Secret Service did not update its asset tracking system on a timely basis to ensure consistent,
accurate, and complete financial reporting. FasTrak needs a version update that is integrated with
the financial accounting system.

Effect

The status of seized and forfeited property and currency reported at year end was not presented
accurately in FasTrak, resulting in adjustments to ending balances included in the notes and/or
financial statements.




                                                   2

                     TREASURY FORFEITURE FUND 

          MANAGEMENT LETTER COMMENT AND RECOMMENDATIONS 

                   YEAR ENDED SEPTEMBER 30, 2006 


Recommendations

We recommend that the Fund ensure that:

(1)	     In the absence of system integration, Secret Service should update the asset tracking system
         on a timely basis to be in sync with the accounting system.

(2)	     Required Secret Service system enhancements should be made to be able to capture and
         report pertinent financial information related to the assets being tracked.

(3)	     Secret Service also improve on its reconciliation process and perform them more frequently
         than currently required – at the end of the third quarter and at year end. Resulting
         adjustments should be made in the asset tracking system so as to remain current.

Management Response

 The USSS represented to the Fund that they will adopt the auditor's recommendations and will
 implement the following measures to ensure the accurate reporting of the status of seized and
 forfeited property and currency:

 (1) 	   USSS will review policy and manpower issues. USSS will increase resources in the 

         Financial Management Office, and will work closely with the Treasury Executive 

         Office of Asset Forfeiture (TEOAF) to educate personnel. 


         USSS will focus on the proper procedures for reconciliation of the asset tracking system
         (FasTrak) and the Fund's accounting system (SAP), data entry, and communication of
         issues.

 (2) 	   As appropriate, the USSS will identify FasTrak enhancements and financial upgrades, 

         needed to properly capture and report pertinent financial information related to the 

         assets being tracked. 


 (3) 	   USSS will provide monthly reconciliations of FasTrak and the Fund's accounting
         system to the Fund for review. This will serve to ensure that FasTrak accurately reflects
         current data.




                                                  3

                MANAGEMENT LETTER 

            COMMENT AND RECOMMENDATIONS 

             CORRECTED IN FISCAL YEAR 2006 

__________________________________________________________________________
                     TREASURY FORFEITURE FUND 

          MANAGEMENT LETTER COMMENT AND RECOMMENDATIONS 

                   CORRECTED IN FISCAL YEAR 2006 


Untimely and Incorrect Submission of Certain Bureau Reimbursement Transactions to
the Fund

Condition

The Fund’s expenses are either paid on a reimbursement basis or paid directly on behalf of a
participating bureau. Reimbursable expenses are incurred by the respective bureaus participating in
the Fund against their appropriation and then submitted to the Fund for reimbursement. There were
notable delays in submitting obligating documents and related reimbursement billings to the Fund
from Internal Revenue Service - Criminal Investigation (IRS-CI). For the year ended September 30,
2005, from a total of $30,722,714 obligated against four financial plan line items, $15,161,825 or
49% was submitted to the Fund on September 26, 2005.

Additionally, estimated amounts of $500,000 of reimbursement requests submitted to the Fund for
payment in May and September were not based on certified expenditures but on obligations.

Recommendations

We recommend the following:

(1) 	   Fund Management continues to work with performing partners to improve the accounting,
        billing, and reporting process for reimbursable transactions.

(2) 	   Performing partners should endeavor to submit bills for reimbursable transactions in a
        timely manner so as to facilitate efficient and effective accounting for the Fund.

Fiscal Year 2006 Status

 During fiscal year 2006, IRS-CI complied with the monthly billing requirements, centralized the
 billing process under Warrants and Forfeitures and perfected the disbursement process to validate
 every payment within the IRS’ official accounting system prior to seeking reimbursement from
 TEOAF.

 This management letter comment has been substantially addressed in FY 2006 and will not be
 repeated.




                                                 4

